Appendix Index
Appendix A - United States v. Moore, (9th Cir. Nov. 23, 2020)

1a

Appendix B - United States v. Moore, 825 F. App’x 453 (9th Cir. 2020)

2a-6a

Case: 18-10437, 11/23/2020, ID: 11902644, DktEntry: 69, Page 1 of 1

Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
NOV 23 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

No.

18-10437

D.C. No.
2:18-cr-00026-KJD-VCF-1
District of Nevada,
Las Vegas

JACQUELINE MOORE,
ORDER
Defendant-Appellant.
Before: WARDLAW, MURGUIA, and MILLER, Circuit Judges.
The panel has voted to deny the petition for panel rehearing and to deny the
petition for rehearing en banc.
The full court has been advised of the petition for rehearing and rehearing en
banc and no judge has requested a vote on whether to rehear the matter en banc.
Fed. R. App. P. 35.
The petition for panel rehearing and the petition for rehearing en banc are
DENIED (Doc. 68).

1a

United States v. Moore, 825 Fed.Appx. 453 (2020)

Appendix B
825 Fed.Appx. 453
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.
UNITED STATES of America, Plaintiff-Appellee,
v.
Jacqueline MOORE, Defendant-Appellant.
No. 18-10437
|
Submitted April 2, 2020 * Pasadena, California
|
FILED September 9, 2020
*

[5] any error in district court declining to continue defendant's
trial after she received a transcript of a recorded interview
with the victim was harmless; and
[6] any error in indictment's failure to allege, and the district
court's failure to instruct on, the knowledge element of a
charge for being a felon in possession was not plain error.
Affirmed.
See also: 2018 WL 2110607.
Procedural Posture(s): Appellate Review; Trial or Guilt
Phase Motion or Objection.
West Headnotes (8)
[1]

Synopsis
Background: Defendant was convicted in the United States
District Court for the District of Nevada, Kent J. Dawson,
Senior District Judge, of being a felon in possession of a
firearm and ammunition. Defendant appealed.

Batson claim, that reason was relevant to the
prosecution of felon in possession of a firearm
and ammunition, and that reason was a genuine
reason for exercising the peremptory strike
rather than pretext intended to hide purposeful
discrimination; government also struck white
prospective jurors who had relatives convicted of
a felony and government did not strike a Black
male juror.

Holdings: The Court of Appeals held that:
Batson challenge were

[2] evidence was sufficient to support separate convictions for
possession of a gun and ammunition;
[3] arresting police officer's testimony on the difference
between actual and constructive possession constituted lay
testimony rather than expert testimony;
[4] any error in district court admitting officer's testimony was
harmless;

Peremptory challenges

District court's findings were not clearly
erroneous when it found that the government's
reason for striking Black female prospective
juror, that she had a relative who was a convicted
felon, was sufficiently race-neutral to rebut

The panel unanimously concludes this case is
suitable for decision without oral argument.
See Fed. R. App. P. 34(a)(2).

[1] court's findings on defendant's
not clearly erroneous;

Jury

[2]

Weapons

Possession

Evidence was sufficient to support separate
convictions for possession of a gun and of
ammunition, as required to support convictions
for being a felon in possession of a firearm
and ammunition; evidence indicated that the
firearm was shoved up in the dashboard of
the vehicle which was an area not commonly
used by any drivers for a normal purpose, that
the ammunition was found in defendant's purse,
which she carried freely on her person when
she got out of the vehicle and closed the door,

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2a

1

United States v. Moore, 825 Fed.Appx. 453 (2020)

statement to cross-examine the victim, who had
already been impeached at trial.

that the vehicle belonged to defendant, and that
18

the firearm had defendant's DNA on it.
U.S.C.A. §§ 922(g)(1),
28 U.S.C.A. § 1291.

[3]

Criminal Law
Subject-Matter

924(a)(2),

3742;

Criminal Law

Opinion evidence

Any error in district court admitting arresting
police officer's testimony regarding the
difference between actual and constructive
possession was harmless in prosecution of
defendant for being a felon in possession of
a firearm and ammunition, where district court
subsequently instructed the jury on the elements
of possession.

[5]

Weapons
possession

Time for trial or hearing;

[8]

Criminal Law
of accusation

Requisites and sufficiency

Criminal Law
defenses

Elements of offense and

Any error in indictment's failure to allege, and
the district court's failure to instruct on, the
knowledge element of a charge for being a
felon in possession was not plain error, where
defendant had two previous felony convictions
for which she served more than one year of
imprisonment for each, and thus a retrial would
not have ended more favorably.
§§ 922(g),

18 U.S.C.A.

924(a)(2).

What is possession; constructive

Trial court acted within its discretion when it
gave its jury instruction on possession, even
though the court did not give the Ninth Circuit
model instruction; judge was not required to give
model jury instructions.

[6]

Criminal Law
continuance

Any error in district court declining to continue
defendant's trial after she received a transcript
of a recorded interview with the victim was
harmless in prosecution of defendant for being a
felon in possession of a weapon, where there was
overwhelming trial evidence against defendant.

Special Knowledge as to

Arresting police officer's testimony on the
difference between actual and constructive
possession constituted lay testimony rather than
expert testimony, where the officer based his
testimony on his training and experience as a
law enforcement officer, and the testimony was
helpful to explain defendant's jailhouse phone
calls. Fed. R. Evid. 701.

[4]

[7]

Criminal Law
Want of time for
preparation by counsel
Defendant was not prejudiced by the district
court declining to continue her trial for felon
in possession of a weapon after she received a
transcript of a recorded interview with the victim,
and therefore court acted within its discretion
by declining to continue trial, where defendant's
counsel had enough time to use the recorded

Attorneys and Law Firms
*454 Nancy M. Olson, Assistant U.S. Attorney, USLV Office of the U.S. Attorney, Las Vegas, NV, Elizabeth Olson
White, Esquire, Assistant U.S. Attorney, USRE - Office of the
US Attorney, Reno, NV, for Plaintiff-Appellee
Amy B. Cleary, Assistant Federal Public Defender, Federal
Public Defender's Office Las Vegas, Las Vegas, NV, for
Defendant-Appellant
Appeal from the United States District Court for the District
of Nevada, Kent J. Dawson, District Judge, Presiding, D.C.
No. 2:18-cr-00026-KJD-VCF-1
Before: WARDLAW, MURGUIA, and MILLER, Circuit
Judges.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3a
a

2

United States v. Moore, 825 Fed.Appx. 453 (2020)

(citing
Tolbert v. Page, 182 F.3d 677, 685 (9th Cir. 1999)
(en banc)).

*455 MEMORANDUM **
**

This disposition is not appropriate for publication
and is not precedent except as provided by Ninth
Circuit Rule 36-3.

Jacqueline Moore appeals her conviction and sentence
following a jury trial for being a felon in possession of a
firearm and ammunition, in violation of

18 U.S.C. §§

922(g)(1) and 924(a)(2). We have jurisdiction under
U.S.C. § 3742 and 28 U.S.C. § 1291, and we affirm.

18

1. Moore challenges the district court's denial of her Batson
challenge to the government's strike of a black female juror.
We review a district court's application of the three-part
Batson framework de novo:

First, a defendant must make a prima
facie showing that a peremptory
challenge has been exercised on the
basis of race. Second, if that showing
has been made, the prosecution must
offer a race-neutral basis for striking
the juror in question. Third, in light of
the parties’ submissions, the trial court
must determine whether the defendant
has shown purposeful discrimination.

United States v. Alvarez-Ulloa, 784 F.3d 558, 565 (9th Cir.
2015) (quoting
Miller–El v. Cockrell, 537 U.S. 322, 328–
29, 123 S.Ct. 1029, 154 L.Ed.2d 931 (2003)). At this third
step, the district court “must decide not only whether the
reasons stated are race-neutral, but whether they are relevant
to the case, and whether those stated reasons were the
prosecutor's genuine reasons for exercising a peremptory
strike, rather than pretexts invented to hide purposeful
discrimination.” United States v. Mikhel, 889 F.3d 1003, 1029
(9th Cir. 2018) (quoting
Green v. LaMarque, 532 F.3d
1028, 1030 (9th Cir. 2008)). The district court's findings are
reviewed “deferentially, for clear error.”
United States v.
Hernandez-Herrera, 273 F.3d 1213, 1218 (9th Cir. 2001)

[1] Here, the parties dispute only the third step of the Batson
inquiry. After the government explained that it struck the
juror because she had a relative who was a convicted felon,
“[not] because she was black or because she was a female,”
the district court determined that the reasons stated by the
government were “race neutral,” “relevant to the case,” and
“genuine reasons for exercising the peremptory strike rather
than pretext intended to hide purposeful discrimination.” The
district court's finding was not clearly erroneous, especially
where the government also struck white jurors who had
relatives convicted of a felony and did not strike a black
Cook v. Lamarque, 593 F.3d 810, 817
male juror. See
(9th Cir. 2010) (finding prosecutor's rationale “legitimate and
not pretextual” where similarly situated white jurors were
also not permitted to serve). While the district court did not
expressly address Moore's gender-based claim, thus meriting
our de novo review, see Alvarez-Ulloa, 784 F.3d at 565–66,
Moore nevertheless fails to carry her burden of persuasion
to show purposeful discrimination on the basis of gender,
as Moore fails to specifically explain how the government's
strike was motivated by gender discrimination, see
Yee v.
Duncan, 463 F.3d 893, 898 (9th Cir. 2006) (“[T]he ultimate
burden of persuasion regarding racial [or in this case gender]
motivation rests with, and never shifts from, the opponent
of the strike.” (second alteration in original) *456 (quoting
Purkett v. Elem, 514 U.S. 765, 768, 115 S.Ct. 1769, 131
L.Ed.2d 834 (1995) (per curiam))).
[2] 2. Moore next contends that the district court erred when
it denied her motion for judgment of acquittal under Federal
Rule of Criminal Procedure 29 based on insufficient evidence.
Here, viewing the evidence in the light most favorable to
the prosecution, a rational trier of fact could have found
separate possession of the gun and ammunition beyond a
reasonable doubt. See United States v. Reed, 575 F.3d 900,
923 (9th Cir. 2009). The jury heard evidence that the firearm
was “shoved up in the dashboard,” which is “an area not
commonly used by any drivers ... for a normal purpose.” By
contrast, the ammunition was found in Moore's purse, which
she carried freely on her person when she got out of the
vehicle and closed the door. The jury also heard evidence
that the vehicle belonged to Moore, and that the firearm had
Moore's DNA on it. Therefore, the district court did not err
when it denied Moore's motion for judgment of acquittal.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4a
a

3

United States v. Moore, 825 Fed.Appx. 453 (2020)

[3] [4] 3. Next, Moore argues that the district court abused
its discretion when it permitted one of the arresting police
officers to testify on the difference between actual and
constructive possession, which Moore contends rendered the
officer's lay witness testimony expert in nature. This argument
is unavailing. “A lay witness's opinion testimony necessarily
draws on the witness's own understanding, including a
wealth of personal information, experience, and education....”

[1] the extent of [Moore's] diligence
in [her] efforts to ready [her]
defense prior to the date set for
hearing ... [2] how likely it is that
the need for a continuance could
have been met if the continuance
had been granted ... [3] the extent
to which granting the continuance
would have inconvenienced the court
and the opposing party, including its
witnesses ... [and] [4] the extent to
which [Moore] might have suffered
harm as a result of the district court's
denial.

United States v. Gadson, 763 F.3d 1189, 1208 (9th
Cir. 2014). Here, the officer based his testimony on his
training and experience as a law enforcement officer, and the
testimony was helpful to explain Moore's jailhouse phone
calls. See Fed. R. Evid. 701;
Gadson, 763 F.3d at 1209–
10 (allowing lay officer's interpretation of intercepted phone
calls). In any event, any purported error would have been
harmless because the district court later instructed the jury on
the elements of “possession.” See
United States v. Wells,
879 F.3d 900, 923 (9th Cir. 2018) (“Generally, if we conclude
that evidence has been improperly admitted, ‘we consider
whether the error was harmless.’ ” (quoting
United States
v. Bailey, 696 F.3d 794, 802–03 (9th Cir. 2012))).
[5] 4. The district court did not abuse its discretion when
it gave its jury instruction on “possession.” See
United
States v. Powell, 955 F.2d 1206, 1210 (9th Cir. 1991).
Moore does not contend that the district court's instruction
was a misstatement of the law; instead, she claims that the
court should have given the Ninth Circuit model instruction.
However, “district judges are not required to give model jury
instructions,” United States v. Vallejo, 237 F.3d 1008, 1025
n.8 (9th Cir. 2001), and “trial judge[s are] given substantial
latitude in tailoring the instructions so long as they fairly and
adequately cover the issues presented,”

United States v.

Ayers, 924 F.2d 1468, 1475 (9th Cir. 1991) (quoting United
States v. Cruz, 783 F.2d 1470, 1472 (9th Cir. 1986)).
[6]
[7] 5. Nor did the district court abuse its discretion
when it declined to continue Moore's trial after she received
a transcript of a recorded interview with the victim. 1 See
*457 United States v. Rivera-Guerrero, 426 F.3d 1130, 1138
(9th Cir. 2005). A four-factor test guides our analysis:

Id. at 1138–39 (quoting United States v. Flynt, 756 F.2d
1352, 1359 (9th Cir. 1985)). “None of the first three factors is
ordinarily dispositive” but Moore must “establish the fourth
—prejudice.” Id. at 1139. Here, it is clear that no prejudice
resulted from the denial. Moore's counsel had enough time to
use the recorded statement to cross-examine the victim, who
had already been impeached at trial. Moreover, any purported
error would have been harmless given the overwhelming trial
evidence against Moore. See
United States v. Kloehn, 620
F.3d 1122, 1130 (9th Cir. 2010) (“An arbitrary denial of a
continuance is subject to the harmless error test.”).
1

Citing the government's alleged failure to timely
disclose the victim's statement, Moore requests that
we review the grand jury testimony to determine
whether it contains material that Moore would
have been entitled to receive during trial under
the Jencks Act,
18 U.S.C. § 3500(b). Moore
waived this issue by failing to raise it in the district
court. See Fed. R. Crim. P. 6(e)(3)(F). But even
if it were not waived, we would decline to grant
Moore's request, as she has failed to demonstrate a
particularized need based on little more than mere
speculation. See
United States v. Walczak, 783
F.2d 852, 857 (9th Cir. 1986) (“A trial judge should
order disclosure of grand jury transcripts only when
the party seeking them has demonstrated that a
‘particularized need exists ... which outweighs the

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5a
a

4

United States v. Moore, 825 Fed.Appx. 453 (2020)

satisfied the fourth prong of the plain error standard, which
requires her to “offer a plausible basis for concluding that

policy of secrecy.’ ” (quoting
Pittsburgh Plate
Glass Co. v. United States, 360 U.S. 395, 400, 79
S.Ct. 1237, 3 L.Ed.2d 1323 (1959))).
[8] 6. Finally, no plain error resulted from the indictment's
failure to allege, and the district court's failure to instruct on,
the knowledge element of a prosecution under

18 U.S.C.

an error-free retrial might end more favorably.”
United
States v. Johnson, 963 F.3d 847, 852 (9th Cir. 2020); see also
United States v. Benamor, 937 F.3d 1182, 1189 (9th Cir.
2019). The record on appeal indicates that Moore had two
previous felony convictions for which she served more than

924(a)(2) as established in
Rehaif v.
§§ 922(g) and
United States, ––– U.S. ––––, 139 S. Ct. 2191, 2200, 204
L.Ed.2d 594 (2019) (holding that the government “must prove
both that the defendant knew he possessed a firearm and
that he knew he belonged to the relevant category of persons
barred from possessing a firearm.”). Under plain error review,
relief is not warranted unless there is “(1) error; (2) that is
plain; (3) that affects substantial rights; and (4) where the error
seriously affects the fairness, integrity, or public reputation

Johnson, 963 F.3d
one year of imprisonment for each. See
at 852 (holding that, as part of our sufficiency-of-the-evidence
analysis on plain-error review, we may “review the entire
record on appeal—not just the record adduced at trial”).

of judicial proceedings.”
United States v. Pelisamen, 641
F.3d 399, 404 (9th Cir. 2011). We conclude that Moore has not

825 Fed.Appx. 453

End of Document

AFFIRMED.
All Citations

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6a
a

5

